                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Quick Reaction Report:
                     EPA Oversight Needed to
                     Ensure Beach Safety in
                     U.S. Virgin Islands
                     Report No. 14-P-0155                    March 31, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Kathlene Butler
                                                     Allison Dutton
                                                     Dan Engelberg
                                                     Fred Light




Abbreviations

BEACH Act      Beaches Environmental Assessment and Coastal Health Act of 2000
DPNR           U.S. Virgin Islands Department of Planning and Natural Resources
EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
USVI           U.S. Virgin Islands


Cover photo: A view of Magen’s Bay in St. Thomas, U.S. Virgin Islands. (EPA OIG photo)



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations, 

 through one of the following methods:          contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T 

           Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               14-P-0155
                                                                                                         March 31, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Quick Reaction Report: EPA Oversight Needed to
This is a quick reaction report
                                    Ensure Beach Safety in U.S. Virgin Islands
that addresses requirements
                                     What We Found
under the Beaches
Environmental Assessment and        In violation of its agreement under the BEACH Act
Coastal Health Act of 2000                                                                 The lapse in sampling of
                                    grant with the EPA, the USVI Department of             USVI beaches created risk
(BEACH Act). Based on a             Planning and Natural Resources (DPNR) did not          that the public was
request from the U.S.               monitor the beaches on St. Thomas and St. John         exposed to unsafe levels
Environmental Protection            for pathogens between February 3–16, 2014.             of bacteria and the
Agency’s (EPA’s) Region 2           Under the grant, beach sampling is supposed to         environment may have
Administrator, we are               occur on a weekly basis at 23 beaches on these         been endangered.
evaluating whether programs         two islands to identify any harmful levels of
that the U.S. Virgin Islands        contamination in the water. In response to our draft report, Region 2 is acting to
(USVI) operates meet EPA            oversee and assess the USVI beach monitoring program. Region 2 took
requirements, and what steps        immediate action to address the lapse in sampling and asked the DPNR to
EPA Region 2 has taken to           develop a plan for notifying the EPA if sampling ceases again. Region 2 is also
ensure the programs have            working to address the lack of a contract to conduct beach sampling.
achieved the intended benefits.
Region 2 provided to USVI a         The DPNR restarted beach sampling on February 17, 2014. The lapse in
grant of more than $300,000 for     sampling posed potential health hazards to humans and may have endangered
weekly monitoring of USVI           the environment. The DPNR issued press releases, which two USVI newspapers
beaches over fiscal years 2013      printed on February 7 and 14, 2014, indicating that beaches in St. Thomas and
and 2014. Any issues to report      St. John had not been monitored the previous week. This action was consistent
on the territory’s overall          with DPNR procedures for public notification. However, this may not be adequate
performance in the BEACH Act        notice for tourists visiting the USVI, as they may not read the local newspapers.
or other environmental
programs will be reported            Recommendations and Corrective Actions
separately.
                                    We recommended that the EPA Regional Administrator, Region 2:
This report addresses the
following EPA themes:                 	 Immediately take steps to ensure that the USVI beach monitoring and public
                                         notification meet EPA guidelines and continue.
 	 Making a visible difference
    in communities across the         	 Determine whether the DPNR has a sustainable beach monitoring program
    country.                             in place (for example, with valid contracts for sampling and lab analysis) that
                                         will provide continuous beach monitoring and adequate public notification.
 	 Protecting water: A                  If it is determined that the USVI beach monitoring program is not
    precious, limited resource.
                                         sustainable, the EPA should manage the program according to the BEACH
                                         Act until the DPNR can demonstrate it can meet all BEACH Act
                                         requirements and EPA guidance.
For further information,            The agency agreed with our recommendations and said actions it already has
contact our public affairs office
at (202) 566-2391.
                                    underway achieve the purpose of the recommendations. In response to
                                    recommendation 1, Region 2 stated it held a conference call with the DPNR to
The full report is at:              discuss the lapse, and requested DPNR prepare a contingency plan. In response
www.epa.gov/oig/reports/2014/       to recommendation 2, EPA Region 2 described several areas where the region
20140331-14-P-0155.pdf              and the DPNR are working to address the beach monitoring program deficiencies.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                          March 31, 2014

MEMORANDUM

SUBJECT:       Quick Reaction Report: EPA Oversight Needed to Ensure Beach Safety in
               U.S. Virgin Islands
               Report No. 14-P-0155

FROM:          Arthur A. Elkins Jr.

TO:            Judith A. Enck, Regional Administrator
               EPA Region 2

This is a quick reaction report prepared by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). The report addresses monitoring requirements
under the Beaches Environmental Assessment and Coastal Health Act of 2000 (BEACH Act).
This report represents the opinion of the OIG and does not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

Purpose, Scope and Methodology

Based on a request from the EPA Region 2 Regional Administrator, the OIG is currently
conducting an evaluation into the U.S. Virgin Islands (USVI) environmental programs. Our
overall objectives are to assess whether programs that the USVI has implemented on the EPA’s
behalf have met programmatic requirements, and what steps Region 2 has taken to ensure that
the programs have achieved the intended environmental and human health benefits. As part of
this review, the OIG is evaluating the USVI’s performance under the BEACH Act. The OIG may
have additional issues to report on the territory’s overall performance in implementing the
BEACH Act. These issues and our report on other environmental programs will be reported
separately.

We performed our work from November 2013 through February 2014 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform our work to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our conclusions based on our evaluation objectives.

To evaluate the BEACH Act program operated by the USVI, we reviewed documents, conducted
interviews with personnel and officials from the EPA and the USVI Department of Planning and



14-P-0155                                                                                        1
Natural Resources (DPNR), interviewed the sampler for beach monitoring, and assessed data
collected under the beach monitoring program.

Background

In 2000, the BEACH Act amended the Clean Water Act to address health problems arising out of
contamination of public beaches from pathogens, such as disease-causing bacteria. It requires
that states, territories and tribes adopt water quality criteria and standards and develop water
quality monitoring and notification programs for beaches, including sampling and lab analysis.
To carry out these tasks, the EPA provides states and other authorized government entities with
federal grant money for monitoring tasks, to develop lists of beaches for sampling and criteria for
identifying contaminants. In 2012, the EPA distributed $9.8 million in grants among U.S. states,
territories and tribes to help protect America’s beaches.

The USVI accepted an EPA grant of $303,000 for fiscal years 2013 and 2014 for weekly
monitoring of 43 of its 148 beaches on the islands of St. Croix, St. John and St. Thomas. Under
the grant, the DPNR is responsible for analyzing the monitoring results and informing the public
of instances of beach contamination. The BEACH Act states that, “In the case of a State that has
no program for monitoring and notification that is consistent with the performance criteria…
the Administrator shall conduct a monitoring and notification program for the listed waters.”1

The USVI coastline is dotted with numerous public beaches. Approximately 200,000 tourists
frequent USVI beaches each month. Of the USVI 43 monitoring beaches, 23 are on St. Thomas
and St. John while the remaining 20 are on St. Croix. The Virgin Islands Beach Monitoring
Program evaluates nearshore water quality by analyzing samples collected from designated
beach swimming areas along the shoreline. The sampling program determines whether human
pathogenic water quality impairment exists at the designated swimming beaches by monitoring
the presence and level of enterococci bacteria, a key indicator of contamination in marine water.

Enterococci contamination leads to skin illnesses in bathers, and enterococci serve as an indicator
of other related contaminants that can lead to gastrointestinal and respiratory illnesses in exposed
swimmers. Waterborne pathogens such as bacteria, viruses and parasites can contaminate the
water and sand at beaches and threaten human health. Contact with or accidental ingestion of
contaminated water can cause vomiting, diarrhea and other illnesses, and may be life-threatening
for susceptible populations such as children, the elderly and those with impaired immune systems.

Beach pollution comes from many sources: nonpoint source pollution from failing septic
systems, pollutants from urban and agricultural land that run into surface water, and pollutants
from the boating community. In conjunction with numerous troubled components of the USVI
public sewer system, these sources may be creating exposure health risks to swimmers at the
territory beaches. Also, extensive coral reefs surround the USVI and are protected by the
Endangered Species Act. The presence of fecal contaminants has been linked to coral disease.

The DPNR is responsible for sampling the 43 monitored beaches on a weekly basis, and when a
monitored beach exceeds the fecal contamination limit an advisory is issued for that beach in the

1
    33 U.S.C. § 1346(h).


14-P-0155                                                                                           2
Friday press release. There were about 2,236 scheduled sampling events in 2012, the most recent
year for which complete data are available. The DPNR issued beach advisories 36 times. The
DPNR issued advisories for six of the 23 beaches on St. Thomas and St. John, including four
advisories at Vessup Bay and two at Coki Beach.

Beach Monitoring on St. Thomas and St. John Ceased for Two Weeks in February

In violation of the terms of its BEACH Act grant with the EPA, the DPNR did not monitor
beaches on St. Thomas and St. John between February 3–16, 2014. A lapse in sampling can pose
health hazards to humans and may endanger the environment.

Region 2 was aware that the DPNR did not have a contract with the company collecting beach
monitoring samples and had not paid the company for sampling work since July 2012. Region 2
senior officials provided documentation that they had contacted the DPNR repeatedly regarding
this issue over the past year, with no results. However, neither the DPNR nor Region 2 had
developed a contingency plan for collecting samples, analyzing results and posting warnings
should the sampling cease, as eventually happened in February 2014. When we discussed the
lapse in sampling with the responsible Region 2 staff on February 6, 2014, the person was
unaware that sampling had not taken place.

We have noted that the absence of a valid sampling contract that establishes standards and
performance requirements could call into question the validity of beach monitoring samples
collected without a contract and creates risk. However, Region 2 stated in its response to this
report that it does not believe the validity of the sample collection was compromised due to the
lack of a contract. Since we issued our draft report, EPA Region 2 informed us that DPNR has
assigned department employees to collect samples until they develop a permanent arrangement
for sampling.

When the sampling lapsed, the DPNR issued press releases, which two USVI newspapers printed
on February 7 and 14, 2014, indicating that beaches in St. Thomas and St. John had not been
monitored for those weeks.2 This followed DPNR procedures for public notification. However,
this may not be adequate notice for tourists visiting the USVI, as they may not read the local
newspapers and thus may be unaware of beach safety.

The absence of beach monitoring on St. Thomas and St. John can pose a potential health hazard
to swimmers at those beaches. Under the BEACH Act, the EPA must conduct a monitoring and
notification program in the absence of an active program by the USVI. Consequently, the EPA
needed to ensure that the USVI beach monitoring program resumed, and that contamination is
reported to the public in a manner that is easily accessible to both residents and tourists.




2
 Virgin Island Daily News available at http://virginislandsdailynews.com, and VI Source - St. John available at
http://stjohnsource.com.


14-P-0155                                                                                                         3
Recommendations

We recommend that the Regional Administrator, Region 2:

   1.	 Immediately take steps to ensure that the USVI beach monitoring and public notification
       meet EPA guidelines and continue.

   2.	 Determine whether the DPNR has a sustainable beach monitoring program in place
       (for example, with valid contracts for sampling and lab analysis) that will provide
       continuous beach monitoring and adequate public notification. If it is determined that the
       USVI beach monitoring program is not sustainable, the EPA should manage the program
       according to the BEACH Act until the DPNR can demonstrate it can meet all EPA
       guidelines.

Agency Comments and OIG Evaluation

We received comments on the draft report from the Region 2 Administrator (appendix A). The
agency agreed with our recommendations and said actions it already has underway achieve the
purpose of the recommendations.

In response to recommendation 1, Region 2 stated it held a conference call with the DPNR to
discuss the lapse, during which the DPNR stated it intended to continue using its staff to perform
sample collection until a contract is in place. The region also requested that the DPNR prepare a
written contingency plan that will go into effect if its beach grant contractors—either sample
collection or analytical—become unavailable for any reason. Region 2 said that the DPNR plan
shall include prompt notification to the EPA in the event that a contractor is no longer
performing services. Region 2 requested that this plan be submitted by February 28, 2014, and
the DPNR provided a plan on that date. Region 2’s actions are responsive to this
recommendation. Recommendation 1 is resolved and closed.

In response to recommendation 2, EPA Region 2 concurred with the importance of having a
sustainable beach monitoring program in the USVI. Region 2 said that, “Programmatically,
Region 2 believes the DPNR to be capable of running a beach monitoring program with adequate
public notification.” However, Region 2 also included in its response a detailed description of the
issues surrounding the DPNR’s ability to operate such a program. The deficiencies described by
Region 2 included financial issues, lack of a current contract for beach sampling, issues with
laboratory availability and capacity, and issues with maintaining and updating signs on beaches.

The region’s response also described several areas where the region and the DPNR are working
to address the beach monitoring program deficiencies.

In a meeting to discuss the region’s comments on our draft report, Region 2 indicated it would
complete its actions in response to recommendation 2 by September 30, 2014. The region
provided acceptable corrective actions for recommendation 2 and the recommendation is
resolved and open pending completion of corrective actions.




14-P-0155                                                                                        4
We have no objections to the further release of this report to the public. We will post this report
to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Dan Engelberg, Director, Water Evaluations, at (202) 566-0830 or engelberg.dan@epa.gov.




14-P-0155                                                                                             5
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1      Action Official           Date      Amount      Amount

     1        4    Immediately take steps to ensure that the USVI             C       Regional Administrator,    2/28/14
                   beach monitoring and public notification meet EPA                        Region 2
                   guidelines and continue.

     2        4    Determine whether the DPNR has a sustainable               O       Regional Administrator,    9/30/14
                   beach monitoring program in place (for example,                          Region 2
                   with valid contracts for sampling and lab analysis)
                   that will provide continuous beach monitoring and
                   adequate public notification. If it is determined that
                   the USVI beach monitoring program is not
                   sustainable, the EPA should manage the program
                   according to the BEACH Act until the DPNR can
                   demonstrate it can meet all EPA guidelines.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0155                                                                                                                                       6
                                                                                     Appendix A

                   Agency Comments on Draft Report


                                         February 28, 2014

 MEMORANDUM

 SUBJECT:       Region 2 Comments on OIG Quick Reaction Report

 FROM:          Judith A. Enck
                Regional Administrator


 TO:	           Carolyn Copper
                Assistant Inspector General
                Office of Program Evaluation


Thank you for the opportunity to comment on the Office of the Inspector General’s Quick
Reaction Report on the U.S. Virgin Islands Department of Planning and Natural Resources
(DPNR) Beaches Monitoring and Notification Program, dated February 19, 2014.

Region 2’s responses to each recommendation in the report are as follows:

OIG Recommendation #1

"We recommend that the Region 2 Administrator immediately take steps to ensure that the USVI
beach monitoring and public notification meet EPA guidelines and continue.”

Region 2 Response

Region 2 concurs and has addressed the Beaches program with DPNR. A conference call between
EPA and DPNR was held on February 21, 2014. DPNR informed EPA that its beach grant
sampling contractor for St. Thomas/St. John stopped collecting samples for a two-week period due
to the failure of DPNR to make payment. DPNR is now using its own staff, trained in sample
collection, to perform these duties. DPNR estimates it will take up to six months to effectuate a
new contract for sample collection. DPNR intends to continue using its staff to perform sample
collection until a new contract is in place.

EPA requested from DPNR a written contingency plan in the event its beach grant contractors,
either sample collection or analytical, becomes unavailable for any reason. The plan is to contain
prompt notification to EPA in the event a contractor is no longer performing services. The



 14-P-0155                                                                                           7
timeframe for prompt notification is to be defined. EPA requested this plan be submitted by
February 28, 2014.

OIG Recommendation #2

"We recommend that the Region 2 Administrator determine whether DPNR has a sustainable
beach monitoring program in place (for example, with valid contracts for sampling and lab
analysis) that will provide continuous beach monitoring and adequate public notification. If it is
determined that the USVI beach monitoring program is not sustainable, the EPA should manage
the program according to the BEACH Act until DPNR can demonstrate it can meet all EPA
guidelines.”

Region 2 Response

Region 2 concurs with the importance of having DPNR maintain a sustainable beach monitoring
program. We are aware of the financial management problems that have plagued DPNR. On
September 30, 2011, EPA issued an audit resolution letter addressing DPNR’s response to findings
raised in Single Audits performed by Ernst & Young LLP, Certified Public Accountants, as
required by the Single Audit Act, for Fiscal Years 2007 and 2008. These audits raised numerous
compliance and crosscutting internal control issues relating to all of DPNR’s programs. Our letter
suspended DPNR from Automated Standard Application for Payments and placed it on a
reimbursement method of payment. Shortly thereafter DPNR objected and claimed it would be
unable to pay its bills in advance of receiving EPA funds, and requested relief. In addition, DPNR
stated that it had implemented adequate internal controls and procedures for managing federal
funds. In 2012 EPA agreed to place all of DPNR’s grants on a “modified reimbursement” method
of payment. Also, at the DPNR Commissioner’s request, EPA conducted an on-site review in
January 2012 to verify whether DPNR had implemented appropriate corrective actions and
adequate internal controls and procedures for managing federal funds. The on-site review resulted
in numerous findings and additional questioned costs. Region 2 has been working with DPNR
since fiscal year 2011 to address its financial and grant management issues and we continue to
press for improvements.

EPA’s ongoing reviews of DPNR’s payment requests continue to identify significant concerns and
have resulted in questioned and disallowed costs. Since being placed on the modified
reimbursement method of payment, DPNR has been slow in submitting payment requests for the
Beach program. Requests that have been submitted are missing information and are lacking
approvable supporting documentation. Among other issues, DPNR did not provide copies of valid
contract agreements as part of the supporting documentation. EPA’s October 30, 2013 response to
its payment request package is attached.

Beginning in June 2012, Region 2 received calls from the owner of DPNR's contract laboratory
(Ocean Systems labs), who was pleading for our assistance in receiving long-overdue payments for
water sample analyses the company did for the PPG and beach grants. She explained that she had
not been paid by DPNR and was on the verge of going out of business because she was unable to
pay her bills. Similarly, beginning in February 2013, the owner of the water sampling firm (Auset
Water Testing) contacted the Regional Administrator’s office on numerous occasions over the past



 14-P-0155                                                                                           8
year regarding lack of payment from DPNR (see attached correspondence). While EPA has no
jurisdiction over DPNR’s legal relationships with its contractors, we have tried to help facilitate
the discussion between these firms and DPNR . In fact, DPNR now has a current contract with its
contract laboratory, and Region 2 has recently authorized payment for the lab services. We have
not yet authorized payment for the sampling services, however. We are waiting for sufficient
documentation demonstrating that DPNR adhered to proper procurement regulations. It is
important to note here that DPNR’s problems with delayed payments to its contractors predate the
imposition of the modified reimbursement method of payment and that the sampling and reporting
of beach water monitoring results continued until recently, even with this problem.

Programmatically, Region 2 believes DPNR to be capable of running a beach monitoring program
with adequate public notification. In addition to postings in local newspapers, DPNR’s Beaches
workplan states, “the press releases are printed in the local news papers, aired on the local radio
news, posted on the department’s website and published on other local online periodicals.” This
meets the performance criteria as stated in the June 2002 National Beach Guidance and Required
Performance Criteria for Grants, Chapter 5: Public Notification and Risk Communication, 5.3.4
How to Notify: “A functional equivalent at the point of access could be a visual notice or personal
interaction such as a flag at a beach or interaction with beach or park personnel. Other functionally
equivalent measures not provided at the point of access include mass media (newspapers,
television, and radio), Internet web sites, telephone hotlines, and technical reports.” DPNR has
issued press releases in a timely manner. We agree that a sign at the beach would increase public
notification, however DPNR has had difficulties maintaining and updating signs. We will urge
DPNR to come up with a plan to address this issue.

The lack of a current contract for sample collection is an issue that we will work to resolve.
However, this situation does not compromise the validity of beach monitoring results, as the
samples were collected in accordance with an approved quality assurance project plan, and
analyzed by a laboratory that has demonstrated proficiency in performing analyses for
microbiological contaminants. The OIG should be aware that Ocean Systems Laboratory, with
facilities on both St. Thomas and St. Croix, is the only commercially available laboratory in the
U.S. Virgin Islands (VI) that can provide analytical services for microbiology. Due to the short
holding times involved from sample collection to analyses for microbiology (six hours), off-island
laboratories cannot provide such services. Two years ago, Region 2 initiated a Caribbean Science
Consortium, designed to encourage coordination between governmental, academic and private
laboratories and foster growth in laboratory capabilities in the Caribbean. A workshop will be held
this September in Puerto Rico bringing together interested parties.

As a member of the Science Consortium, the University of the Virgin Islands (UVI) had expressed
an interest in doing laboratory analysis to support environmental programs in the VI. In February
2013, Region 2 conducted an on-site gap analysis of the UVI Environmental Analysis Laboratory
located on the St. Thomas campus and held a “Laboratory Considerations” meeting on the St.
Croix campus for their planned laboratory. The approach to the Laboratory on the St. Thomas
campus was to assess the organization and operations against the guidance and requirements of
EPA’s “Manual for the Certification of Laboratories Analyzing Drinking Water,” fifth edition, and
identify any gaps. EPA issued a report listing these gaps and noted actions needed to help guide
the laboratory. There was no UVI Laboratory Facility on St. Croix; however, plans were underway



 14-P-0155                                                                                          9
for the construction of one. The EPA review team held a meeting on the St. Croix Campus with
VIDPNR and University representatives to review analytical needs and discuss the next steps
needed to develop a laboratory program. Additional efforts will be made by Region 2 to bring
additional critical laboratory services to the VI.

Because tourists are frequent beachgoers in USVI, it is important to have signage or other
information at the beach site to inform beachgoers who are not likely reading local media
reports. Although the Beach Act does not require the closing of a beach, other states, such as New
Jersey, have adopted into their State Sanitary Code the requirement that all coastal bathing beaches
close when bacteria levels exceed water quality standards. Once a beach is closed, signage is place
at the beach site and people are not permitted to enter the water. This approach would be the most
protective of public health and should be evaluated.

If you have any questions on the attached comments, please contact me at 212-637-5000 or John
Svec of my staff at (212) 637-3699.

Attachments




 14-P-0155                                                                                       10
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Regional Administrator, Region 2
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Regional Administrator, Region 2
Audit Follow-Up Coordinator, Region 2




14-P-0155                                                                           11
